               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




              Flat-Shaped Mail Costs

                       Audit Report




                                              January 4, 2013

Report Number MS-AR-13-003
                                                                         January 4, 2013

                                                               Flat-Shaped Mail Costs

                                                        Report Number MS-AR-13-003




BACKGROUND:
Flat-shaped mail includes large              29.9 percent of flat mail manually, we
envelopes, newspapers, catalogs,             estimate it could save about $129.6
magazines, and other publications that       million annually if it met its stretch goal
meet certain size and flexibility            of 20 percent. As part of this $129.6
standards. In fiscal year 2011, United       million, we estimate the Postal Service
States Postal Service revenue from           could save about $3.6 million per year if
regular Standard Mail® and Periodicals       it moved 10 percent of flat mail
flats was $4.3 billion — $1.2 billion less   processed at non-automated facilities to
than the $5.5 billion in transportation,     automated facilities and about $21.6
processing, delivery, and other costs        million annually if it moved manually
attributed to those products.                sorted retail mail to automated
                                             processing operations.
Our objective was to determine whether
the Postal Service’s network and             WHAT THE OIG RECOMMENDED:
operational decisions limit efficient        We recommended the Postal Service
processing of flats.                         establish goals more consistent with the
                                             current stretch goal of 20 percent, to
WHAT THE OIG FOUND:                          lower the percentage of manually
Management’s decisions to manually           processed flat mail. We also
process potentially machinable mail and      recommended the Postal Service
the lack of flats mail processing            evaluate opportunities to reduce the
equipment at certain processing              number of plants and other mail
facilities have limited Postal Service       processing facilities and develop a
efforts to reduce costs associated with      processing strategy to automate the
manually processing flats. Despite           processing of single-piece First-Class
investments in flat mail processing          Mail® flats. We further recommended the
equipment, about 30 percent of flat mail     Postal Service ensure that procedures
continues to be manually processed. In       for placing and processing forwarding
addition, some flat mail that cannot be      labels comply with Computerized
delivered for various reasons is             Forwarding System requirements.
manually processed due to software
issues of automation machinery and/or        Link to review the entire report
incorrect application of processing
procedures by field personnel.

While the Postal Service’s planned goal
in fiscal year 2011 was to process
January 4, 2013

MEMORANDUM FOR:            DAVID E. WILLIAMS
                           VICE PRESIDENT, NETWORK OPERATIONS



FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue and Performance

SUBJECT:                   Audit Report – Flat-Shaped Mail Costs
                           (Report Number MS-AR-13-003)

This report presents the results of our audit of Flat-Shaped Mail Costs (Project Number
12RG013CRR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet Sorensen, director, Sales
and Marketing, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    James J. Boldt
    Corporate Audit and Response Management
Flat-Shaped Mail Costs                                                                                             MS-AR-13-003




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 3

Manual Processing of Flat Mail ....................................................................................... 4

Flats Processing Goals ................................................................................................... 5

Network Limitations ......................................................................................................... 7

Opportunities to Move Single-Piece Flat Mail to Automation........................................... 7

Undeliverable As Addressed Flats .................................................................................. 8

Recommendations .......................................................................................................... 9

Management’s Comments .............................................................................................. 9

Evaluation of Management’s Comments ......................................................................... 9

Appendix A: Additional Information ............................................................................... 11

   Background ............................................................................................................... 11

   Objective, Scope, and Methodology .......................................................................... 13

   Prior Audit Coverage ................................................................................................. 14

Appendix B: Monetary Impacts ..................................................................................... 16

Appendix C: Management’s Comments ........................................................................ 17
Flat-Shaped Mail Costs                                                                                  MS-AR-13-003



Introduction

This report presents the results of our audit of Flat-Shaped Mail Costs (Project Number
12RG013CRR000). Our audit objective was to determine whether the U.S. Postal
Service’s network and operational decisions limit the efficient processing of flat-shaped
mail. This self-initiated audit addresses financial risk. See Appendix A for additional
information about this audit.

Flat-shaped mail, or flats, includes large envelopes, newspapers, catalogs, magazines,
and other publications that meet certain size and flexibility standards. 1 In fiscal year
(FY) 2009, market-dominant 2 flat mail volume was 41.1 billion pieces. Since then, flats
volume declined to 37.9 billion and 37 billion mailpieces in FYs 2010 and 2011,
respectively. As shown in Table 1, Standard Mail® and Periodicals flats total more than
93 percent of flat-mail volume in FY 2011.

                                   Table 1. FY 2011 Flat Mail Volume
                                                              Total Pieces
                       Mail Class                             (in millions)              Percentage
           Standard Mail                                              27,451                74.2
           Periodicals                                                 7,077                19.1
           First-Class Mail                                            2,232                 6.0
           *Package Services (Bound
           Printed Matter Flats)                                            251                0.7
           Totals                                                        37,011              100.0
          *Package Services also includes immaterial volumes of Media and Library Mail flats.
          Source: FY 2011 Market-Dominant Billing Determinants.

In FY 2011, almost 31 percent of flat mail was manually processed. The Postal Service
uses the Management Operating Data System (MODS) 3 to report first handling pieces4
(FHP) and total pieces handled 5 (TPH) mail volume and workhours in manual and
automated flat mail operations at large mail processing facilities. For facilities not
connected to MODS (generally the smaller post offices, stations, and branches), the
eFLASH system 6 is used to report FHP flat mail volume. Overall, the Postal Service
processed about 25.8 billion FHP flats at MODS and non-MODS facilities in FY 2011,
including 17.8 billion flats via automation and 7.9 billion flats manually. At MODS

1
  Domestic Mail Manual, Sections 1.1 through 1.3, 2.1, 2.3 through 2.6, Postal Service, November 2011.
2
  Products and services over which the Postal Service exercises sufficient market power that it can effectively set the
price with limited competition. This category of products includes First-Class Mail, Standard Mail, Periodicals,
Package Services, and most Special Services.
3
  A system that reports workhours and mail volume using operation numbers that identify activities in all functions
including mail processing at large processing facilities (Function 1).
4
  The mail volume recorded in the operation where a mailpiece receives its first handling at a postal facility.
5
  Mail volume measurement that includes FHPs mail volume plus additional mail volume counts in subsequent
manual or machine operations.
6
  An operating reporting management system at post offices that include FHP mail volume for mail processing
functions (Function 4).
                                                            1
Flat-Shaped Mail Costs                                                                               MS-AR-13-003



facilities, 2.2 billion of the 20 billion FHP pieces (or about 11.2 percent) were manually
processed. At non-MODS facilities, 5.7 billion of the 5.8 billion flat mailpieces (or about
98 percent) were manually processed, as shown in Table 2.

                                      Table 2. FY 2011 Flats Processing

                                               Number of FHP Mailpieces                        Percentage
                                                    (in millions)                                Manually
                                             Total Automation       Manual                      Processed
           MODS facilities                  19,951      17,718        2,233                        11.19%
           Non-MODS facilities               5,804         127        5,677                        97.81%
           Totals                           25,755      17,845        7,910                        30.71%
         Sources: FY 2011 MODS and eFLASH.

Revenue from Standard Mail regular flats and Periodicals did not cover attributable
costs in FY 2011. 7 Combined revenue from these two products was about $1.25 billion
below attributable costs. Losses from these two products totaled about $3.7 billion
during the past 3 fiscal years, or about $0.08 cents per mailpiece. Table 3 shows
Standard Mail regular flats and Periodicals mail volume, revenue, attributable costs, and
cost coverage for FYs 2009-2011.

       Table 3. Standard Mail Flats and Periodicals Cost Coverage FYs 2009–2011

                  Standard Mail Flats                      FY 2009           FY 2010           FY 2011
          Volume (millions)                                   7,814            7,068             6,792
          Revenue (millions)                                 $2,882          $2,592             $2,500
          Attributable Costs (millions)                      $3,497          $3,169             $3,143
          Contribution to Fixed Costs                        ($615)           ($577)            ($643)
          (millions)
          Revenue per Piece (cents)                           $0.369          $0.367            $0.368
          Cost per Piece (cents)                              $0.448          $0.448            $0.463
          Cost Coverage Percentage                            82.4%           81.8%             79.5%
                       Periodicals
          Volume (millions)                                    7,594           7,269             7,077
          Revenue (millions)                                  $2,038          $1,879            $1,821
          Attributable Costs (millions)                       $2,680          $2,490            $2,430
          Contribution to Fixed Costs
          (millions)                                          ($642)          ($611)            ($609)
          Revenue per Piece (cents)                           $0.256          $0.258            $0.260
          Cost per Piece (cents)                              $0.337          $0.343            $0.340
          Cost Coverage Percentage                            76.1%           75.5%             74.9%
         Source: Annual Compliance Determination Reports, Postal Regulatory Commission (PRC), FYs 2009-2011.




7
    Direct and indirect costs that can be clearly associated with a particular mail product.

                                                              2
Flat-Shaped Mail Costs                                                                                  MS-AR-13-003




Conclusion

Management’s decision to manually process potentially machinable mail and the lack of
flats mail processing equipment at certain processing facilities limit the Postal Service’s
efforts to reduce costs associated with manually processing flat mail. In FY 2003, the
Postal Service reported that it manually processed 33.3 percent of all flat mail. Eight
years later, the percentage of manually processed flat mail has decreased by about
3.3 percent to about 30 percent. While declining flat mail volume and Postal Service
initiatives to reduce manual flat mail processing have slightly reduced the percentage of
flat mail manually processed and overall flat mail processing costs, further reductions
are achievable.

Network optimization initiatives and revised service standards offer the Postal Service
opportunities to further reduce manual flat mail processing. While the Postal Service’s
goal in FY 2011 was to process 29.9 percent of flat mail manually, we estimate it could
save about $129.6 million annually if it met its stretch goal of 20 percent. As part of this
effort, we estimate the Postal Service could reduce 88,655 workhours, with a
savings of $3.6 million, by moving a portion of the mailpieces processed manually at
non-automated Sectional Center Facilities (SCFs) 8 upstream to automated processing
facilities. We also estimate the Postal Service could reduce 537,704 workhours, with
savings of $21.6 million, by moving retail mail currently sorted in outgoing primary
manual operations to automated processing operations. Finally, the Postal Service
could realize additional savings by ensuring procedures for placement and processing
of forwarding labels comply with Computerized Forwarding System (CFS) requirements,
thus reducing the amount of manually processed Undeliverable As Addressed (UAA)
flats mail. See Appendix B for details regarding the monetary impact.

While achieving $129.6 million in workhour savings only represents about 10 percent of
the $1.2 billion in cost reductions needed to increase Periodicals and Standard Mail cost
coverage to 100 percent, we believe that these cost reductions are critical. Along with
the mail processing issues discussed as follows and other cost reductions in
transportation, post office, and delivery, these improvements are important because
they help establish a clearer picture of the pricing changes needed to ensure flat mail
products cover their attributable costs.




8
 Postal facilities that serve as processing and distribution centers (P&DC) for post offices in a designated geographic
area as defined by the first 3 digits of the ZIP Codes of those offices. Some SCFs serve more than one 3-digit ZIP
     ™
Code range. SCFs receive flat mail from other Postal Service processing facilities or direct drop shipments from
mailers. SCFs process and distribute mail to their associated post offices, stations, and branches.

                                                           3
Flat-Shaped Mail Costs                                                                         MS-AR-13-003




Manual Processing of Flat Mail

Prior U.S. Postal Service Office of Inspector General reports9 and a joint Postal Service
and PRC study 10 have documented multiple reasons for the significant amount of
manual sorting of flat mail at mail processing centers and delivery units. Mail
characteristics (for example, shape, size, weight, thickness) are a key factor in
determining how mail is processed. Flat mail has a wide variety of shapes, sizes,
weights, and thicknesses, which makes it more difficult to process than letters.
Therefore, a higher percentage of flat mail is non-machinable and processed in
manual operations at mail processing facilities or sent to “downstream” offices for
manual processing. For example, at the three P&DCs we visited, newspaper and
newspaper-like flats are considered non-machinable and processed manually.

The volume of flat mail, or densities, can also lead to manual processing. In general, the
Postal Service does not process flats on automated equipment when:

   Mailings sorted to 5-digit ZIP Codes with fewer than 10 carrier routes are received.
    In these situations the standard operating procedure in the field is to send 5-digit
    bundles directly to delivery units for manual processing.

   Thresholds for automated processing cannot be met. For example, the mail
    submission has too few mailpieces to process on automated equipment or the
    submission has insufficient mail processing densities11 to meet automation
    processing thresholds.

   Other classes of mail may have a higher processing priority in order to meet delivery
    schedule windows and automation machinery assets are limited. For example, a
    manager may direct First-Class Mail with overnight service requirements to receive a
    higher automated processing priority than machinable flats. Thus, automation
    equipment is not available to process certain types of flat mail and the mail is
    processed manually to meet delivery standards.

Management has made efforts to reduce the amount of flat mail that they manually
process and reduce overall mail processing costs. In FY 2011, total flat mail volume
dropped about 876.9 million pieces while flat mail volume processed on automation
equipment increased more than 380 million pieces. Management stated the increase in
automation processing was primarily due to deployment of the Flats Sequencing
System (FSS). However, despite declining flat mail volume and incremental
improvements in the percentage of flat mail manually processed, the percentage of flat

9
  The Effects of the Flats Sequencing System on Delivery Operations - Arizona District (Report Number
DR-MA-11-001, dated March 14, 2011); Periodicals Mail Costs (Report Number CRR-AR-11-001, dated December 7,
2010); Flat Sequencing System - Columbus District (Report Number DR-MA-10-002, September 17, 2010); and Flats
Sequencing System Operational Issues (Report Number DR-AR-10-005, dated July 1, 2010).
10
   Periodicals Mail Study, Joint Report of the U.S. Postal Service and Postal Regulatory Commission,
September 2011.
11
   The number of mailpieces, as a percentage of total mailpieces, sorted to a destination.

                                                      4
Flat-Shaped Mail Costs                                                                              MS-AR-13-003



mail manually processed has remained about 30 percent and further reductions are
achievable.

Flats Processing Goals

Developing stringent planned goals for reducing manual mail processing would assist
the Postal Service in improving flat mail cost coverage. In FYs 2010-2012 the
Postal Service’s planned goal for the percentage of flats manually processed was
29.9 percent, with a stretch goal of 20 percent. The Postal Service could save
3.2 million workhours a year, representing $129.6 million in labor costs, if it achieved its
stretch goal of 20 percent manually processed FHP flat mail.

The Postal Service manually processed 7.9 billion of the 25.75 billion flats (or
30.71 percent) in FY 2011. To have achieved the goal of 20 percent manually
processed in FY 2011, about 2.76 billion flat mailpieces would need to have been
moved from manual to automated processing. The continued implementation of the
FSS deployment, combined with the movement of flat mail from non-automated to
automated facilities, and the movement of outgoing primary flat mail to automated
operations provides movement of more than 1 billion mailpieces from manual to
automated processing. Over time, these and other initiatives make the 20-percent goal
achievable.

In FY 2009, The Postal Service’s planned percentage goal for TPH flat mail manually
processed was 37.9 percent. This planned goal decreased to 29.9 percent in FY 2010
with the deployment of the FSS. The Postal Service uses a stretch goal of 20 percent to
calculate opportunity hours 12 and cost. The Postal Service reported the percentage of
TPH flat mail manually processed decreased from 34.8 percent in FY 2009 to a
projected 29.4 percent in FY 2012. Table 4 shows the target and actual percentages
from FYs 2009-2012.




12
  Opportunity hours are the difference between the 20-percent target and the actual percentage that exceeds the
20 percent. The opportunity costs are the opportunity hours multiplied by the respective labor rate.

                                                        5
Flat-Shaped Mail Costs                                                                             MS-AR-13-003




                 Table 4. Percentage of TPH Flat Mail Manually Processed

                                                            Percentage
                             Fiscal        Planned                               Stretch
                              Year            Goal             Actual               Goal
                              2009           37.9%             34.8%                20%
                              2010           29.9%             34.3%                20%
                              2011           29.9%             31.7%                20%
                              2012           29.9%             29.3%                20%
                      Sources: MODS and eFLASH.

In its FY 2009 Annual Compliance Determination 13 (ACD), the PRC directed the
Postal Service to develop a plan addressing operational and pricing strategies needed
to increase the cost coverage for a number of flat mail products, including Standard Mail
and Periodicals flats. The resultant strategic plan 14 identified 30 ongoing or planned
future initiatives in transportation, mail processing, and Post Office™ operations/delivery,
as opportunities to reduce flat mail costs. The initiatives included a mix of programs
including:

    Initiatives that require a capital investment and have associated decision analysis
     reports 15 (DARs) that detail implementation plans and dates and expected savings.

    Initiatives that do not require capital funding or a DAR, but follow defined business
     management strategies to improve operations and business practices, and are often
     implemented and measured through the Breakthrough Productivity Initiative 16
     program.

    Initiatives that are part of ongoing day-to-day management activities, not limited
     specifically to flats opportunities.

Two major initiatives in the Flats Strategy included the FSS program and Facility
Optimization initiatives that include consolidating mail processing operations and
consolidating the network of 461 mail processing facilities.




13
   An annual report published by the PRC as required by the Postal Accountability and Enhancement Act. The review
focuses on the Postal Service’s financial transparency and compliance with pricing and service performance
standards.
14
   Postal Service Flats Strategy, June 30, 2010. See full plan here
15
   A written report used to justify a project investment and to assist approving authorities in making
decisions concerning the use of Postal Service funds.
16
   A nationwide program that identifies, documents, and replicates operational process improvements to standardize
operations, increase efficiency, and reduce costs. The savings are used as a component of the field budget
allocation.

                                                        6
Flat-Shaped Mail Costs                                                                              MS-AR-13-003




Network Limitations

The Postal Service network also limits the effectiveness of automated flat processing
initiatives. The Postal Service has 170 SCFs, serving 190 3-digit ZIP Codes and 1,400
5-digit ZIP Codes that do not have flat mail processing equipment. 17 Bundles of flats
sent to these facilities, either drop shipped by mailers or sent by upstream mail
processing facilities, are manually sorted. In FY 2011, we estimate that about
759 million flats were manually processed at these facilities.

The Postal Service is implementing plans to consolidate its mail processing network.
The first phase has up to 140 consolidations planned through February 2013, including
15 of the 170 non-automated SCFs. The second and final phase has another
89 consolidations scheduled to begin in February 2014. These consolidations provide
an opportunity for the Postal Service to move flats from non-automated facilities
upstream to automated processing facilities. If the Postal Service moved 10 percent of
the 759 million flats processed at non-automated SCFs to automation, we estimate mail
processing workhour savings would be $3.6 million. See Appendix B for additional
details.

Opportunities to Move Single-Piece Flat Mail to Automation

Our observations of mail processing operations at three P&DCs in two districts indicate
there are additional opportunities to reduce manual flat mail processing. One district
manually processed First-Class Mail single-piece flats picked up from over-the-counter
retail sales or collection box deposits. The rationale for manual processing was to meet
First-Class Mail overnight service standards. The second district processed this flat mail
on the automated flat sorter machine (AFSM) 100 and also met service standards.

Overall, in FY 2011, MODS mail processing facilities reported that 542.1 million flat
mailpieces were sorted in these manual operations. 18 Total First-Class Mail single-piece
flat mail volume was more than 1.5 billion pieces in FY 2011. This indicates that about
one-third of mail processing facilities manually sort single-piece First-Class Mail flats.

On December 5, 2011, the Postal Service adopted new rules for market-dominant mail
service standards that will be implemented in two phases. The first phase began
July 1, 2012, and includes eliminating the overnight service standard for First-Class Mail
sent by retail customers. This will provide mail processing facilities with additional time
to move this single-piece mail into automated operations. Based on manual and AFSM
100 processing throughputs, we estimate the Postal Service could reduce 537,704
workhours moving outgoing primary flat mail from manual to automated operations in
facilities that have flats automation equipment. The cost savings would be about
$21.6 million.

17
   Commercial mailers may receive price discounts for certain types of mail presorted and drop shipped to an SCF,
even if the mail is manually sorted.
18
   MODS Operation Number 060, Manual Flat, Primary Distribution — Outgoing.

                                                         7
Flat-Shaped Mail Costs                                                                              MS-AR-13-003




Undeliverable As Addressed Flats

Certain UAA flats are also processed manually. UAA mail consists of mail with an
incomplete or incorrect address; an addressee not at that address because he or she
has moved, are unknown, or deceased; address and route adjustments. This UAA flat
mail cannot be delivered as addressed and is either forwarded to the addressee if an
address change service is on file, returned to the sender, or treated as waste. A Flats
Forwarding Terminal is used to process flat mail in the CFS for UAA mail that is
forwarded or returned to sender. After operators process a flat mailpiece, a labeling port
applies a second mailing label with a new mailing address and a Postal Alpha Numeric
Encoding Technique (PLANET) Code® label. After the PLANET Code label is applied,
the flats are moved to automated operations for additional sorting. Figure 1 depicts UAA
flat mailpieces with original and PLANET Code mailing labels.

                                             Figure 1. UAA Flat Mail




        Source: Jackson P&DC operations; Jackson, MS; April 2012.

In May 2011, management updated AFSM 100 and Upgraded Flats Sorting Machine
100 (UFSM100) optical character recognition software to give priority to PLANET
codes when processing flat mail. Under this change a PLANET Code take
precedence over any other barcode on the mailpiece and the AFSM 100 Co-Barcode
Reader (CoBCR) will sort to the PLANET Code address. This change eliminated the
need to cover the original mailing label to avoid having the mailpiece scanned and
sorted based on the original UAA mailing label. Several “Respect The Clear Zone”
communications were sent to field operations directing them to not mark or cover the
original address or barcode on UAA mailpieces. Not covering the original address and
barcode allows end-to-end mailpiece visibility, allows mailers to update their mailing
lists, and preserves any ancillary services 19 included in the original barcode.


19
  Optional services purchased for mailpieces including Address Correction Service, Business Reply Mail service,
Certified Mail, and Delivery Confirmation.

                                                         8
Flat-Shaped Mail Costs                                                                        MS-AR-13-003



However, CFS operations in the districts we visited did not process UAA return to
sender and forwarded flats in that manner. The first district reported that the AFSM 100
sort program would frequently sort flat mailpieces based on the original mailing label;
therefore they sent all return to sender and forwarded flats to manual operations for
additional sorting. The second district also reported problems with the AFSM 100 sort
program; they applied the PLANET Code label directly over the original mailing label
and attempted additional sorting in automated operations. Management in both districts
stated the AFSM 100 would not sort properly if there were two mailing labels visible on
the mailpiece. We estimated that about 133 million return to sender and forwarded flats
are processed each year. Ensuring the AFSM 100 sort programs are working correctly,
and ensuring that procedures for placing and processing forwarding labels comply with
CFS requirements, could significantly reduce manual processing of UAA flats.

Recommendations

We recommend the vice president, Network Operations, ensure that:

1. Established goals are more consistent with the current stretch goal of 20 percent to
   lower the percentage of manually processed flat mail.

2. Opportunities for reducing the number of non-automated plants and other mail
   processing facilities are evaluated during facility optimization initiatives.

3. A processing strategy is developed to move single-piece First-Class Mail flats from
   manual to automated operations in facilities that have flat automation equipment.

4.   Procedures for placing and processing forwarding labels comply with Computerized
     Forwarding System requirements.

Management’s Comments

Management agreed with the findings and recommendations but stated the monetary
benefit is based on their stretch goal and not an addition of flat sorting machines,
software enhancements, or operating practices. Management agreed with
recommendations 1 through 4 and agreed to take corrective actions by August 31,
2013. 20

Regarding recommendation 1, management will evaluate flat mail strategies and
manually processed flat mail goals. Regarding recommendation 2, management will
evaluate opportunities to move flats from manually processing sites to another location
with under-utilized automation capacity and still make service standards. Regarding
recommendation 3, management will reissue previous mandates to the plants
instructing them to fully utilize their mail processing equipment set and keep flat mail in
automation. Finally, regarding recommendation 4, management will develop a test to

20
  The milestone date for recommendation 4 was provided in a communication subsequent to the management
response dated December 26, 2012.

                                                     9
Flat-Shaped Mail Costs                                                    MS-AR-13-003



determine the root causes of why forwarded flats are not being run properly on ASFM
100 equipment. See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General considers management’s
comments responsive to the recommendations in the report. Regarding management’s
disagreement with the monetary impact, the continued implementation of the FSS
deployment, combined with the movement of flat mail from non-automated to automated
facilities, and the movement of outgoing primary flat mail to automated operations
provides more than one-third of the savings we estimated could be made in moving
more than 1 billion mailpieces from manual to automated processing. We believe these
actions along with network consolidations, relaxation of delivery standards, and other
initiatives make the 20-percent goal achievable.




                                          10
Flat-Shaped Mail Costs                                                                                 MS-AR-13-003



                                 Appendix A: Additional Information

Background

Flats are generally newspapers, catalogs magazines, or mailpieces that exceed
dimensions for letters. Flat mail entered at facilities for processing is distributed in
accordance with two basic mail flows:

    Outgoing/originating mail is received and sorted at a mail processing facility then
     dispatched to another facility for additional processing and delivery.

    Incoming/destinating mail is mail arriving at a processing facility (incoming) for final
     processing and delivery (destination) within that facility’s delivery area.

More than 90 percent of flat mail arrives at a processing facility on pallets or in sacks
and requires an initial bundle separation (also referred to as distribution). The
Postal Service processes bundles using the Automated Package Processing System,
the mechanized Small Parcel Bundle Sorter, or a manual sort process.

Over the past 30 years, the Postal Service has purchased equipment and developed
strategies to automate the processing of flat mail. In 1982, the Postal Service deployed
the first in a series of flat sorting machines 21 designed to automate flat mail processing
– before 1982 all flat mail was manually processed. In 1999, the Postal Service
deployed the first fully automated flat sorting machine, the AFSM 100. By 2002, 534
AFSM 100s were installed at 240 mail processing facilities.

After completing deployment of the AFSM 100s, the Postal Service Flats Strategy,
published in June 2003, 22 recommended moving all AFSM 100s and flat sorting
machine (FSM) 1000 compatible (machinable) flat mail away from manual and
mechanical operations to more efficient automated operations. While manual sorting
operations process about 3,000 flats per hour, the AFSM 100 can process more than
16,000 flats per hour. The strategy noted the greatest opportunity for reducing costs
involved moving the manual distribution of machinable flats from associate offices,
stations, and branches into 'upstream'23 mail processing locations that had either AFSM
100s or FSM 1000s.

The FSS — introduced in 2008 — is the latest generation flat mail processing system
deployed by the Postal Service. Before FSS, the AFSM 100 and UFSM 1000 sorted flat
mail to carrier routes. The flats were then distributed to carriers who manually cased the
mail in delivery sequence order. The FSS is designed to automate the sorting of flat
mail into delivery sequence order, thereby reducing the number of workhours that


21
   FSM 775 (1982), FSM 881 (1992), FSM 1000 (1996), and current upgraded FSM 1000.
22
   USPS Corporate Flats Strategy, June 2003.
23
   A general term describing mail flow from acceptance to processing to delivery. An upstream operation is the prior
operation that processed mail. Conversely, a downstream operation is the next (subsequent) operation that will
process mail.

                                                          11
Flat-Shaped Mail Costs                                                           MS-AR-13-003



carriers spend manually sequencing flats. 24 There are two ways the FSS can reduce
mail processing workhours. First, management could reduce distribution workhours at
delivery units because sequenced flats arrive in street-ready containers that can be
loaded directly into delivery vehicles, therefore, distribution clerks do not need to
distribute bundles and containers of flat mail. Second, deployment of the FSS will free
up AFSM 100 capacity when flat mail moves from AFSM 100 to FSS processing.
Freeing up AFSM 100 capacity would allow the Postal Service to shift flat mail currently
processed manually at delivery units due to capacity constraints to automated AFSM
100 processing. About 9 percent of flat mail was processed on the 100 FSS machines
deployed at 46 sites in FY 2011.

Today, the majority of automated flats sorting is performed on three machines: the
AFSM 100 and, to a significantly lesser extent, the UFSM 1000 and FSS. The AFSM
100 has three automatic feed stations, 120 stackers, and the ability to process up to
17,000 mailpieces per hour in carrier route sequence. In FY 2011, more than 90 percent
of flat mail was processed on the AFSM 100. Flats are sorted manually when they
cannot be finalized on either automation or mechanization, when machine assets are
limited, or when operational managers make decisions to work the mail manually. In
delivery operations, manual sortation by clerks must take place for any flat mail that is
not already sorted to carrier route by the mailer, or carrier-routed or delivery point
sequenced by machines at the upstream processing centers. Carriers must manually
sequence all flats for delivery unless they are one of the designated FSS offices
receiving sequenced flats.

In its FY 2010 ACD, the PRC determined that revenue from Standard Mail® flats was
continually below the costs attributed to that product and, therefore, the Postal Service
did not comply with the postal law requirement that postal rates are established to
apportion the costs of all postal operations to all users of the mail on a fair and equitable
basis. 25 The Postal Service appealed that determination arguing, among other issues,
that the law requires the Standard Mail class to cover costs — not the Standard Mail
Flats product within that class — and that the finding of non-compliance exceeded the
PRC’s authority. On April 17, 2012, the U.S. Court of Appeals ruled that the PRC had
the authority to require the Postal Service to increase rates for its Standard Mail Flats
service to cover its costs so that other mailers do not effectively subsidize the
customers with flats products that are not covering costs. The court ordered the PRC to
clarify its policy on products covering their costs and determine the threshold whereby a
cost-coverage deficiency would trigger a finding of non-compliance with Postal
Accountability and Enhancement Act 26 cost requirements.




24
   Customer Service (Function 2) workhours.
25
   39 U.S.C. § 101 (d) – Postal Service policy.
26
   Public Law 109-435, Section 3622(c) (2), 39 U.S.C., December 20, 2006.

                                                       12
Flat-Shaped Mail Costs                                                                                 MS-AR-13-003




Objective, Scope, and Methodology

Our audit objective was to determine whether the Postal Service’s network and
operational decisions limit efficient processing of flat mail.

To determine mail volume by class and subclass, we reviewed the Postal Service’s
FY 2011 Billing Determinants. 27

To determine the percentage of flat mail volume processed in manual and automated
operations, we examined FY 2011 MODS data for all Function 1 28 facilities and FY 2011
eFLASH data for Function 4 29 offices. We used the Postal Service’s Incoming
Secondary Manual Distribution Report 30 to map associate offices (non-MODS facilities)
to their host plants.

To identify non-automated SCFs, we obtained a list from the Postal Service’s Confirm
website. To verify that facilities had no flat sorting equipment, we compared the flat
sorting equipment inventory lists to the non-automated SCF list. To verify the accuracy
of the associate office mapping, we reconciled the associate office mapping to Function
4 facilities listed in the Enterprise Data Warehouse. We discussed the accuracy of flat
mail volume data with selected plant managers and observed the procedures used to
develop eFLASH reports. We determined that the data were sufficiently reliable for the
purposes of this report.

To obtain a better understanding of the Postal Service’s network and operations, we
interviewed Postal Service personnel from the Processing Operations and Service and
Field Operations Performance Measurement groups. We also visited select facilities in
the Sierra Coastal 31 and Mississippi 32 districts. We observed flat mail processing
operations and interviewed district and plant personnel.

We conducted this performance audit from November 2011 through January 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our

27
   A quarterly Postal Service report presenting the volume and rate categories for each product and service used to
calculate total revenue.
28
   Function 1 facilities are P&DCs and other large mail processing facilities that report workhours and mail volume
through MODS.
29
   Function 4 offices are smaller mail processing facilities and post offices, stations, and branches that are non-MODS
facilities.
30
   A MODS- and eFLASH-based report prepared by the Service and Field Operations Performance Measurement
office within Network Operations that analyzes letter and flat mail automated and manual handling at MODS and
non-MODS facilities.
31
   Santa Clarita P&DC, Santa Barbara P&DC, and the Nuys FSS Annex.
32
   Jackson P&DC.

                                                          13
    Flat-Shaped Mail Costs                                                      MS-AR-13-003



    observations and conclusions with management on September 5, 2012, and included
    their comments where appropriate.

    Prior Audit Coverage

  Report Title      Report Number      Final Report Date         Monetary Impact
The Effects of      DR-MA-11-001           3/14/2011                $522,450
the Flats
Sequencing
System on
Delivery
Operations -
Arizona District
Report Results      About 14 million flat mailpieces could not be processed on FSS
                    machines; 7 million of these pieces required manual sorting and
                    casing. This occurred because these mailpieces did not meet flat
                    mail automation requirements. Management agreed with the finding,
                    recommendation, and monetary impact; however, did not specifically
                    address how they were going to reduce the amount of unworked flat
                    mail to delivery units.

Periodicals Mail    CRR-AR-11-001          12/7/2010                   None
Costs
Report Results      Manual costs attributed to Periodicals continued to rise because of
                    procedures under the Hot 2C program; missed Critical Entry Times;
                    bundle breakage and preparation problems; mailpiece characteristics
                    that made them non-machinable; and inconsistent reporting in the
                    electronic Mail Improvement Reporting (eMIR) system. Management
                    agreed with the recommendations and stated there were ongoing
                    efforts to analyze operational conditions and their impact on cost
                    attribution. Management also stated they would develop eMIR system
                    training guidance with a system redesign by May 2011.




                                               14
    Flat-Shaped Mail Costs                                                         MS-AR-13-003




Report Title        Report Number       Final Report Date           Monetary Impact
The Effects of      DR-MA-10-002            9/17/2010                  $155,157
the Flats
Sequencing
System on
Delivery
Operations -
Columbus
District
Report Results      Delivery units received more than 8.5 million flat mailpieces that were
                    not processed on FSS. Over 2 million of these mailpieces required
                    manual sorting and casing. This occurred because this mail did not
                    meet flat mail automation requirements. Management agreed with
                    the finding and recommendation, and stated they will continue
                    notifying mailers of irregularities in mail preparation and implement
                    strategies to close the gap between the district’s performance and
                    the FSS baseline projections.

Flats                DR-AR-10-005            7/1/2010                   $852,336
Sequencing
System
Operational
Issues
Report Results      The report identified several FSS machines that were unavailable for
                    several months and processing issues that negatively impacted
                    delivery operations. Management agreed with finding 1 and all the
                    recommendations, but disagreed with the methodology in finding 2
                    and the calculation of monetary impact. As a result of additional
                    information, changes were made to the methodology and estimated
                    monetary impact for finding 2.




                                                 15
Flat-Shaped Mail Costs                                                                                MS-AR-13-003




                                      Appendix B: Monetary Impacts

          Recommendation                         Impact Category                              Amount
                1                             Funds Put to Better Use 33                    $259,154,687

In FYs 2010-2012 the Postal Service’s planned goal for the percentage of flats manually
processed was 29.9 percent, with a stretch goal of 20 percent. The Postal Service could
save 3,221,373 workhours a year, representing $129,577,343 in labor costs, if it
achieved its stretch goal of 20 percent manually processed FHP flat mail. That would be
$259,154,687 over 2 years.

Within these cost reduction efforts, we specifically estimate that the Postal Service used
1.1 million workhours costing $44.3 million in FY 2011 to manually process 759 million
flat mailpieces at non-automated SCFs. As part of the manual processing reduction
effort, we estimate that if the Postal Service moves 10 percent of this manually
processed mail (75.9 million mailpieces) into AFSM 100 automation, based on manual
and AFSM 100 throughputs, it could reduce 88,655 workhours and achieve cost
savings of $3,566,097.

In December 2011, the Postal Service adopted new rules for market-dominant mail
service standards that will be implemented in two phases. The first phase includes
eliminating the overnight service standard for First-Class Mail sent by retail customers.
As a result of implementing the first phase, the Postal Service can move retail mail that
is currently sorted in outgoing primary manual operations to automated processing.
Based on manual and AFSM 100 throughputs, we estimate that the Postal Service
could reduce workhours by 537,704 with a cost savings of $21,628,740 annually.




33
     Funds Put to Better Use are funds that could be used more efficiently by implementing recommended actions.

                                                          16
Flat-Shaped Mail Costs                                       MS-AR-13-003



                         Appendix C: Management’s Comments




                                        17
Flat-Shaped Mail Costs        MS-AR-13-003




                         18
Flat-Shaped Mail Costs        MS-AR-13-003




                         19
